                              Closeout for M O O O l O O O l

     On January 6, 2000, a                        l told us a PI2 had submitted a
FastLane proposal that contained allegations of plagiarism. I n accordance with
NSF's policy, we redacted the allegations out of the proposal. The PI listed three
professors to be excluded from review: subject 1 3 because he credited someone
(subject 2)4 other than the PI as developing a particular idea; subject 35 because he
unethically used the PI'S ideas; and subject 46 because misrepresented the PI'S
results.                                                                                ,i .

      In a conversation with the PI, he said he was not making "real" allegations in
the sense that he wanted OIG to investigate them; he merely wanted the PO and
reviewers to be aware that distinguished scientists had made use of his ideas (albeit
in his opinion inappropriately). In particular, his most specific allegation, against
subject 1, was not about subject 1,but rather against subject 2 (who has not
received any NSF funding and we therefore lack jurisdiction over). The PI did not
provide any information detailed enough to allow further inquiry. In fact, his
complaint could be characterized more as a n authorship dispute with the PI                    4


believing he should have more credit from the subjects than he has received.
   Given the lack of a serious complainant and specificity in the allegations, this
inquiry is closed and no further action will be taken on this case.

cc: Integrity, IG




     1 (footnote redacted).
     2 (footnote redacted).
     3 (footnote redacted).
     4 (footnote redacted).
     5 (footnote redacted).
     6 (footnote redacted).



                                      Page 1 of 1
